Audit of the African Development Foundation’s
Financial Statements, Internal Controls, and
Compliance for the Fiscal Year Ended
September 30, 2002
Audit Report No. 0-ADF-03-003-C
January 29, 2003




                   Washington, D.C.

This page intentionally left blank.
January 29, 2003


MEMORANDUM

FOR:	          African Development Foundation President,
               Mr. Nathaniel Fields

FROM:	         IG/A/FA, Alvin A. Brown /s/

SUBJECT: Audit of the African Development Foundation’s
Financial Statements, Internal Controls, and Compliance for the Fiscal
Year Ended September 30, 2002 (Report No. 0-ADF-03-003-C)

We contracted with the independent certified public accounting firm of
Leonard G. Birnbaum and Company, LLP (LGB) to audit the financial
statements of the African Development Foundation as of September 30,
2002 and for the year then ended. The contract required that the audit
be done in accordance with generally accepted government auditing
standards; Office of Management and Budget’s (OMB) Bulletin, Audit
Requirements for Federal Financial Statements; and the General
Accounting Office/President’s Council on Integrity and Efficiency
Financial Audit Manual.

In its audit of the African Development Foundation (ADF), the LGB
auditors found:

   • 	 that the financial statements were fairly presented, in all material
       respects, in conformity with U.S. generally accepted accounting
       principles,
   • 	 a material weakness in ADF’s internal controls, and
   • 	 three instances of noncompliance related to the inadequacy of its
       financial and accounting system.

The material weakness in internal controls relates to an inadequacy in
the system used by the General Services Administration to process
ADF’s transactions (see p. 13). Because of this weakness, the U.S.
General Ledger has not been implemented at the transaction level.



                                                                         1
The auditors noted instances of noncompliance with the Budget and
Accounting Procedures Act of 1950; OMB Circular A-127 and; Federal
Financial Management System Requirements issued by the Joint
Financial Management Improvement Program.

In connection with the contract, we reviewed LGB’s report and
related documentation and inquired of its representatives. Our
review, as differentiated from an audit in accordance with U.S.
generally accepted government auditing standards, was not intended
to enable us to express, and we do not express, opinions on ADF’s
financial statements or internal control or on whether ADF’s financial
management systems substantially complied with the Federal
Financial Management Improvement Act; or conclusions on
compliance with laws and regulations. LGB is responsible for the
attached auditor's report dated November 8, 2002 and the conclusions
expressed in the report. However, our review disclosed no instances
where LGB did not comply, in all material respects, with generally
accepted government auditing standards.

Because of the reported material weakness and compliance findings, we
are making the following recommendations to ADF management:

       Recommendation No. 1: We recommend that the African

       Development Foundation develop a plan to implement the

       U.S. Standard General Ledger at the transaction level.

       Recommendation No. 2: We recommend that the African
       Development Foundation develop a plan to ensure that its
       accounting system is capable of providing full disclosure of
       its results of financial operations and adequate financial
       information needed in the management of its budget and
       operations, and of providing effective control over its
       revenues, expenditures, funds, property, and other assets in
       accordance with the Budget and Accounting Procedures Act
       of 1950, Office of Management and Budget Circular A-127,
       and the Joint Financial Management Improvement
       Program’s Federal Financial Management System
       Requirements.

The report also contains a management letter comment that did not
require a written response. Your written comments on the draft audit
report have been incorporated into this report.

The OIG appreciates the cooperation and courtesies extended to our
staff and to the staff of LGB during the audit. If you have questions
concerning this report, please contact Andrew Katsaros at
(202) 712-4902.



                                                                    2
Table of 
   Management’s Discussion and Analysis      4     

Contents

             Independent Auditor’s Report             12 


             Balance Sheet                            18 


             Statement of Net Cost                    19 


             Statement of Changes in Net Position     20 


             Statement of Budgetary Resources         21 


             Statement of Financing                   22 


             Notes to the Financial Statements        23 


             Report to ADF Management                 29 


             Management Comments and Our Evaluation   32 


             Appendix I - Management Comments         33 





                                                       3
MANAGEMENT'S DISCUSSION AND ANALYSIS


The African Development Foundation’s (ADF) mission is to make significant, innovative
contributions to the development and support of solutions to poverty and community-based
development in Africa. ADF accomplishes this by providing funding to empower grassroots
groups to become self-reliant and to resolve problems themselves.

ADF is a unique organization that promotes broad-based, sustainable development in sub-Saharan
Africa and the expansion of local capacity to promote and support grassroots development. ADF
was established as a federal agency and a public corporation by the African Development
Foundation Act in 1980 and began operations in 1984. Since that time ADF has funded more than
1500 projects. The Foundation supports:

•	  Development of micro and small businesses that generate increased incomes and employment;
•	  Trade and investment linkages for small enterprises and agricultural producer groups;
•	  Building of self-supporting, sustainable, local community development agencies;
•	  Promoting community based interventions directed toward AIDS prevention and mitigation;
    and
• 	 Strengthening democratic values and institutions at the local level.

ADF has a thorough, three-stage grant review process that includes intense scrutiny of: (1) initial
applications and applicant project sites, (2) project concept papers, and (3) final project papers
containing detailed implementation plans, and full budgetary and financial analyses

Most of ADF’s grants are greater than $50,000 and the maximum grant size is $250,000. To
complement this funding, ADF often helps its beneficiaries leverage grants, loans, and loan
guarantees from other sources. This is accomplished through strategic partnerships with national
and regional governments in Africa, national and regional development banks, other international
development assistance agencies, and the private sector.

Unlike other development agencies, ADF works directly with African producer groups and non-
governmental organizations. The Foundation does not channel any resources through governments.
All ADF-funded projects are initiated by the enterprise or community group and, rather than
designing projects itself, ADF works with the local partner non-government organizations (NGOs)
to define the assistance it really needs. The Foundation's participatory approach assures local
ownership and strong participation, and it has been shown to enhance the impact and sustainability
of the investments.

The African Development Foundation is currently administering over 230 projects in thirteen
countries:

Benin                    Mali                     Senegal
Botswana                 Namibia                  Tanzania
Cape Verde               Niger                    Uganda
Ghana                    Nigeria                  Zimbabwe
Guinea




                                                                                                      4
                        ADF’s Strategic Goals and Objectives for FY 2002

Beginning in fiscal year (FY) 2001, ADF began to restructure its headquarters and field operations to
provide in country representation. ADF also developed and implemented a grant financial management
system customized specifically to the Foundation’s grant programs. Taking into consideration all these
challenges, the Foundation has made remarkable accomplishments in achieving its Strategic Goals and
Objectives for FY 2002 (Table 1).

Establishment of new strategic partnerships.

    During FY 2002, ADF established three new strategic partnerships with the Government of Namibia,
    Government of Jigawa State in Nigeria, and the World Bank in Guinea. Combined with ADF’s
    existing partnership with the Government of Botswana, ADF leveraged over $1.104 million in FY
    2002. By FY 2004, ADF hopes to establish at least 4 new co-funding arrangements with
    governments, donors, or private sectors.

Management Reforms - Decentralization of ADF Headquarters and Realignment of its Field
Structure.

    During FY 2002, ADF established new partnership agreements with independent, legally registered,
    non-government organizations through an open, competitive selection process in all of its thirteen
    countries. In FY 2002, ADF adopted a new strategic objective of helping develop the capacity of its
    partner organizations to achieve long-term financial sustainability. Within each country, the new
    partner organizations will assist applicants in developing, implementing, and monitoring their
    projects. During the first two years of the new cooperative agreement (FY 2002 and 2003), the
    Foundation asked its new partner organizations to concentrate on ADF work. However, in FY 2004,
    ADF will encourage the new partner organizations to take on additional work from other funding
    agencies and clients, thereby reducing their dependency on ADF support.

    The next phase of ADF’s management restructuring is the decentralization of its field representation
    to improve compliance with U.S. government regulations, ADF’s policies, and project screening and
    monitoring. In FY 2002, ADF began hiring resident in-country contractors who will serve as ADF’s
    resident representatives. An administrative assistant and a driver will be contracted by ADF to
    support the resident representatives. Each field representative’s office will be staffed with African
    professionals who know the country, speak the local language, and understand enterprise
    development. The selection of all country resident representatives will be completed by December 31,
    2002.

    At this time ADF is also realigning its headquarters staff to fit the new decentralized field structure.
    In order to ensure a smooth transition with the field operations and continued screening and
    monitoring projects, ADF/Washington staff continues to serve as interim country representatives until
    all field representatives are in place and trained. The additional costs incurred during the transitional
    start up phase contributed to the significant increase in ADF non-program costs during FY 2002.
    Although the realignment of headquarters staff will implement by January 31, 2003, continued non-
    program costs will be incurred to establish field representative’s offices. By the fourth quarter of FY
    2003, ADF expects to reestablish its rate of non-program costs of 25.2%.




                                                                                                           5
Improved Accounting and Financial Management Systems

   ADF implemented a comprehensive grants database to improve management oversight and internal
   controls for financial and progress reporting of grantees and partner organizations. During the third
   quarter of FY 2002, the grants database became fully operational as a tool for financial and
   administrative management. The advantages of the database is significant given its ability to
   simultaneously track and report in both local currency and equivalent US dollar values. Currently,
   ADF’s grant and cooperative agreements are tracking eleven different currencies specific to the
   countries serviced. Therefore, the timeliness and accuracy of tracking multiple currencies is an
   essential component in ADF’s management of its grant funds.

   In addition to the implementation of a comprehensive grant database, on October 1, 2002, the United
   States General Ledger was implemented at the transaction level. This corrected the material
   weakness in the internal controls of ADF’s financial and accounting system as of September 30,
   2002.

Increased Program Funding

   In FY 2002 over 85 new grant and cooperative agreements were funded in ADF’s thirteen countries.
   The actual amount of project agreements funded was $15 million, almost doubling the amount funded
   in the prior year. In FY 2002, specific to its development grants, ADF tripled it’s funding from $3
   million, to $11 million. Through an aggressive proposal development and streamlined approval
   process, the Foundation has significantly reduced its carryover of available unobligated funds into FY
   2003.

Financial Accountability

   ADF undergoes annual, independent audits that address the financial statements, internal controls,
   and compliance with laws and regulations. ADF received an unqualified opinion on all five financial
   statements for FY 2001 and FY 2002 from its independent auditors and the USAID Office of the
   Inspector General. In addition, ADF corrected the material findings cited in the FY 2001 audit report
   and continues to prioritize its financial and accounting controls over the public funds entrusted to the
   Foundation.




                                                                                                           6
              ADF’S STRATEGIC GOALS AND OBJECTIVES for FY 2002 

                                             Table 1 





Goal I: Advance broad-based, sustainable development and empowerment
        of the poor in Africa


       Objective 1:   Promote micro- and small-enterprise development that will
                      generate income and employment.

       Objective 2:   Increase participation of African grassroots enterprises and
                      producer groups in trade and investment relationships with
                      the U.S. and within Africa.

       Objective 3:   Promote innovative community-based interventions to remediate the
                      economic and social impact of HIV/AIDS and reduce its spread.

Goal II: Expand local capacity to promote and support grassroots, participatory development.


       Objective 1:   Build self-supporting, sustainable, local community development agencies
                      that provide technical assistance and support to grassroots groups.

       Objective 2:   Promote community resource mobilization and reinvestment.

       Objective 3:   Establish strategic partnerships with national and local governments,
                      other donor agencies, and the local private sector, to support sustainable,
                      grassroots development.

       Objective 4:   Encourage African governments and other donors to increase utilization
                      of participatory development “best practices.”




Selected Performance Indicators

In accordance with the Government Performance and Results Act, ADF prepares an Annual Performance 

Report. ADF’s performance results for FY’s 1999, 2000, and 2001 are presented for comparison

purposes and to demonstrate ADF’s significant growth prior to FY 2002 activities, Table 2. 





                                                                                                 7
                   ADF’s Comparative Performance Results for FY’s 1999, 2000 and 2001 

                                                   Table 2 

Performance Indicator                 FY 1999 Results          FY 2000 Results          FY 2001 Results
Micro- and Small Enterprise
Development
Cumulative number of MSEs                     5,863                19,635                      47,049
assisted
Cumulative number of new micro-                  49                    136             Indicator discontinued
credit facilities established
Cumulative number of loans                  18,910                 42,518                      54,099
disbursed to MSEs
Cumulative number of new loan                    19                     80        Indicator discontinued
products supported
Cumulative number of people                 23,636                 39,354                      66,126
receiving business management
or technical training
Cumulative gross revenues of        Indicator not in use     Indicator not in use        $17,456,526
assisted enterprises and
organizations
Cumulative income distributed by Indicator not in use        Indicator not in use        $10,528,248
assisted enterprises or
organizations as salaries,
dividends, or profits
Cumulative number of workers in             15,655                 47,168                      36,457
MSEs receiving loans or trade
and investment assistance
Natural resource management
Cumulative number of                             51                    166        Indicator discontinued
communities adopting at least
one improved NRM practice
Cumulative number of people                      18                  5,888                      3,598
trained in improved NRM
practices
Trade and Investment
Number of export products                          2                     2                           4
promoted
Cumulative number of new            Indicator not in use                 3                          18
production and export trade
arrangements established
AIDS Prevention & Mitigation
Cumulative number of people         Indicator not in use               962                     35,483
receiving training in AIDS
prevention
Participatory Development
Methods
Host governments encouraging        Indicator not in use                 2                           2
donors to adopt PDM or
allocating more funding to PDM




                                                                                                     8

Future Activities

The U.S. Government appropriations for ADF in FY 2002 were $16.54 million. Although as of the
preparation of this report the appropriations for FY 2003 have not been set, it is expected to be $18.689
million. Receiving the full funding expected in FY 2003 will enable the Foundation to continue its
support for micro and small enterprise (MSE) development, and help African producers respond to new
trade and investment opportunities in the United States and around the world. In addition, ADF will be
able to expand in the following areas:

    • 	 The Foundation will be able to launch major programs in Eritrea and Mozambique where ADF’s
        unique approach would make an important contribution to the countries’ national rural
        development programs and complement other USG support in these important countries.

    • 	 It will also enable the Foundation to continue incorporating HIV/AIDS prevention strategies in all
        ADF projects and support other additional community based AIDS programs, which will be a
        significant grassroots component of the USG efforts to halt the spread of this deadly virus.

    • 	 From the Foundation’s project management perspective, ADF will expand its grants database to
        include detail information to analyze project performance and results.

    • 	 Beyond ADF's own project portfolio, this funding will also enable the Foundation to develop an
        estimated twelve high-impact, participatory development program models that can be replicated
        by others. In so doing, ADF will multiply the return on its investments and efforts.

ADF Quality Assurance, Internal Controls and Legal Compliance

In 1994, ADF established an Internal Audit Department (IAD) with a full-time Financial and Field
Auditor who reported directly to the President. The Foundation’s Board of Directors has a designated
audit committee who are responsible for all audit and review functions of the Foundation. ADF’s Internal
Financial and Field Auditor is primarily responsible for the financial oversight of all partner
organizations. The IAD conducts an on site internal audit of each partner organization at least once every
two years and reviews the results of the partner’s yearly independent audit.

In addition to the Financial and Field Auditor, IAD also has a full-time Financial Control Officer whose
primary responsibility is oversight of the Foundation's grantees. The Financial Control Officer also
supervises the independent external audit of ADF’s grant program.

Each of ADF’s partner NGOs has a Financial Officer who assists the grantees in their compliance with
the Foundation’s legal and financial reporting requirements.

ADF’s field representatives monitor the financial and progress reporting by grantees and partner
organizations, address any discrepancies or other issues, make regular site visits to verify project
performance, and report to ADF management.

The grants database has a full time Grants Database and Operations Manager, who is the primary person
responsible for the continued integrity and security of all administrative and financial data reported.




                                                                                                            9
Comments on Financial Statements

In FY 2001 ADF received an unqualified opinion on all five financial statements from its independent
auditors Leonard G. Birnbaum and Company, and the USAID Office of the Inspector General. ADF is
pleased to report the Foundation continued to receive an unqualified opinion of all five comparative
statements, the Balance Sheet, the Statement of Net Costs, the Statement of Net Position, the Statement of
Budgetary Resources, and the Statement of Finance for FYs 2001 and FY 2002.

Limitations of the Financial Statements

ADF’s principal financial statements have been prepared to report the financial position and results of
operations of the entity, pursuant to the requirements of 31 U.S.C. 3515 (b).

While the statements have been prepared from books and records in accordance with generally accepted
accounting principles (GAAP) for Federal entities and the formats prescribed by OMB, the statements are
in addition to the financial reports used to monitor and control budgetary resources which are prepared
from the same books and records.

The statements should be read with the realization that they are for a component of the U.S. Government,
a sovereign entity.




                                                                                                          10
AFRICAN DEVELOPMENT FOUNDATION

 INDEPENDENT AUDITOR'S REPORT

    SEPTEMBER 30, 2002 and 2001




   Leonard G. Birnbaum and Company 

      Certified Public Accountants 

         6285 Franconia Road 

      Alexandria, Virginia 22310 

             (703) 922-7622                 





                                       11
                           INDEPENDENT AUDITOR’S REPORT



To the Board of Directors and the President,
African Development Foundation:

        We have audited the African Development Foundation’s (ADF) Balance Sheet,
Statement of Net Cost, Statement of Changes in Net Position, Statement of Budgetary Resources
and Statement of Financing (Principal Financial Statements) as of and for the year ended
September 30, 2002; and the Balance Sheet, Statement of Net Cost and Statement of Changes in
Net Position as of and for the year ended September 30, 2001; and have examined internal
control over financial reporting in place as of September 30, 2002.

       In our opinion, ADF’s Principal Financial Statements referred to in the first paragraph,
are presented fairly in all material respects as of and for the fiscal year ended September 30,
2002. In addition, ADF’s Balance Sheet, Statement of Net Cost and Statement of Changes in Net
Position as of and for the fiscal year ended September 30, 2001, are presented fairly in all
material respects.

We found:
              an instance, as noted below, of material weakness in the internal controls over
              financial reporting, and

              Instances, as noted below, of noncompliance with selected provisions of
              applicable laws and regulations.

Each of these conclusions is discussed in more detailed below. This report also discusses the
scope of our work.

                          PRINCIPAL FINANCIAL STATEMENTS

        In our opinion, the accompanying balance sheets of ADF as of September 30, 2002 and
2001, and the related ADF’s statements of net cost and changes in net position for the fiscal
years then ended, and ADF’s statement of budgetary resources and financing for the fiscal year
ended September 30, 2002, present fairly, in all material respects, the

       • 	 financial position of the ADF as of September 30, 2002 and 2001;

       • 	 net cost and changes in net position of the ADF for the fiscal year ended September
           30, 2002 and 2001, and;

       • 	 budgetary resources and financing of the ADF for the fiscal year ended September 30,
           2002;

in conformity with accounting principles generally accepted in the United Sates of America.




                                                                                              12
                                     INTERNAL CONTROL


       We considered ADF’s internal control in order to determine our auditing procedures for
the purpose of expressing our opinion on the Principal Financial Statements and not to provide
assurance on internal control. Consequently, we do not provide an opinion on internal controls.

       The objectives of internal control are to provide management with reasonable, but not
absolute, assurance that the following objectives are met:

       • 	 transactions are properly recorded and accounted for to permit the preparation of
           reliable financial reports and to maintain accountability over assets;

       • 	 funds, property, and other assets are safeguarded against loss from unauthorized
           acquisition, use, or disposition; and

       • 	 transactions, including those related to obligations and costs, are executed in
           compliance with laws and regulations that could have a direct and material effect on
           the financial statements and other laws and regulations that the Office of Management
           and Budget (OMB), or ADF management have identified as being significant for
           which compliance can be objectively measured and evaluated.

        Our consideration of internal control would not necessarily disclose all matters of internal
control over financial reporting that might be reportable conditions. Under standards issued by
the American Institute of Certified Public Accountants, reportable conditions are matters coming
to our attention relating to significant deficiencies in the design or operation of internal control
that, in our judgment, could adversely affect ADF’s ability to record, process, summarize, and
report financial data consistent with the assertions of management in the financial statements.
Material weaknesses are reportable conditions in which the design or operation of one or more of
the internal control components does not reduce to a relatively low level the risk that errors or
irregularities in amounts, which would be material in relation to the financial statements being
audited may occur and not be detected within a timely period by employees in the normal course
of performing their assigned functions.

       We noted the following matter that we considered to be a material weakness as defined
above. ADF’s financial and accounting system, as of September 30, 2002, was inadequate. The
principal areas of inadequacy were:

       °   Because of inadequacies in the system used by the General Services Administration
           to process ADF’s transactions, significant elements of the financial statements
           including, but not limited to, grant advances, prepayments franchise fund, accounts
           payable, undelivered orders, unexpended appropriations, and expenses; were
           developed from sources other than the general ledger.

       °   United States General Ledger has not been implemented at the transaction level.

       We noticed certain other matters involving the internal control structure and its operation
that we have reported to the ADF’s management in a separate letter dated November 8, 2002.

                                                                                                 13
                     COMPLIANCE WITH LAWS AND REGULATIONS

        ADF’s management is responsible for complying with laws and regulations applicable to
ADF. As part of obtaining reasonable assurance about whether the financial statements are free
of material misstatement, we performed tests of ADF’s compliance with certain provisions of
laws and regulations, noncompliance with which could have a direct and material effect on the
determination of financial statements amounts, and certain other laws and regulations specified
in Office of Management and Budget Bulletin 01-02, Audit Requirements for Federal Financial
Statements. However, the objective of our audit of the Principal Financial Statements, including
our tests of compliance with selected provisions of applicable laws and regulations, was not to
provide an opinion on overall compliance with such provisions. Accordingly, we do not express
such an opinion.

        Material instances of noncompliance are failures to follow requirements or violations of
prohibitions in statutes and regulations, which cause us to conclude that the aggregation of the
misstatements resulting from those failures or violations is material to the financial statements or
that sensitivity warrants disclosure thereof.

        The results of our tests of compliance with the laws and regulations described in the
preceding paragraph disclosed the following instances of noncompliance with laws and
regulations that are required to be reported under Government Auditing Standards and OMB-
Bulletin 01-02.

• 	 The inadequacy of the financial and accounting system articulated above are a failure to
    comply with:

       °   The Budget and Accounting Procedures Act of 1950 (Sec. 113), which requires an
           accounting system that provides full disclosure of the results of financial operations,
           adequate financial information needed in the management of operations and the
           formulation and execution of the budget, and effective control over income,
           expenditures, funds, property, and other assets.

       °   OMB Circular A-127 (Financial Management Systems), which requires ADF to
           establish and maintain an accounting system that provides for (1) complete disclosure
           of the financial results of the activities of the agency, (2) adequate financial
           information for agency management and for formulation and execution of the budget,
           and (3) effective control over revenue, expenditures, funds, property, and other assets.

       °   JFMIP’s Federal Financial Management System Requirements state that the core
           financial management systems must support the partnership between program and
           financial managers, and assure the integrity of decision-making information including
           the ability to collect accurate, timely, complete, reliable, and consistent information.
           JFMIP also requires that the core financial system be able to provide financial
           information to support internal and external reporting requirements, including as
           necessary the requirements for financial statements. OMB guidance states that one
           indicator of compliance with this standard is that the ADF’s core financial system,

                                                                                                 14
           supported by other systems containing the detailed data summarized in the core
           financial system, be the source of information for the preparation of the annual
           financial statements. However, the ADF’s core financial system is not the sole source
           of information used in the preparation of the annual financial statements.

   We noted certain other instances of noncompliance that we have reported to the ADF’s
management in a separate letter dated November 8, 2002.


                     REQUIRED SUPPLEMENTARY INFORMATION

The Management’s Discussion and Analysis is not required part of the financial statements but is
supplementary information required by the Federal Accounting Standards Advisory Board and
OMB Bulletin No. 97-01, as amended. We have applied certain limited procedures, which
consisted principally of inquiries of management regarding the methods of measurement and
presentation of the supplementary information. However, we did not audit the information and
express on opinion on it.




                                                                                             15
                         RESPONSIBILITIES AND METHODOLOGY


ADF management is responsible for:

       • 	 preparing the Principal Financial Statements in conformity with generally accepted
           accounting principles;

       • 	 establishing and maintaining effective internal control; and

       • 	 complying with applicable laws and regulations.

        Our responsibility is to express an opinion on these Principal Financial Statements based
on our audit. Generally accepted auditing standards require that we plan and perform the audit to
obtain reasonable assurance about whether the Principal Financial Statements are free of material
misrepresentation and presented fairly in accordance with generally accepted accounting
principles. We considered ADF’s internal control for the purpose of expressing our opinion on
the Principal Financial Statements and not to provide an opinion on internal control. We are also
responsible for testing compliance with selected provisions of applicable laws and regulations
that may materially affect the financial statements.

       In order to fulfill these responsibilities, we

       °   examined, on a test basis, evidence supporting the amounts and disclosures in the
           Principal Financial Statements;

       °   assessed the accounting principles used and significant estimates made by
           management;

       °   evaluated the overall presentation of the Principal Financial Statements;

       °   obtained an understanding of the internal controls over financial reporting;

       °   obtained an understanding of the design and operation of internal controls over the
           reliability of data supporting the performance measures reported in the Management
           Discussion and Analysis section of ADF’s fiscal year 2002 Annual Report;

       °   tested compliance with selected provisions of laws and regulations that may
           materially affect the financial statements; and

       °   performed other procedures, as we considered necessary in the circumstances.

        Our audit was conducted in accordance with generally accepted auditing standards, the
standards applicable to financial audits contained in Government Auditing Standards, issued by
the Comptroller General of the United States, and OMB Bulletin 01-02. We believe that our
audit provides a reasonable basis for our opinion.




                                                                                              16
        This report is intended for the information of the Inspector General of ADF and
management of the African Development Foundation. This restriction is not intended to limit
the distribution of this report, which is a matter of public record.

       Comments by ADF’s management on this report are presented in management’s
discussion and analysis.
                                                 /s/
                                   Leonard G. Birnbaum and Company

Alexandria, Virginia
November 8, 2002




                                                                                        17
                                   AFRICAN DEVELOPMENT FOUNDATION
                                             BALANCE SHEET
                                     As of September 30, 2002 and 2001


                                              Notes        FY 2002                           FY 2001
ASSETS
Entity:
Intragovernmental
 Fund Balance with Treasury                     2           $     17,658,948                 $ 15,274,934
 Accounts Receivable                            5                          0                       82,467
Total Intragovernmental                                           17,658,948                   15,357,401

Cash and other monetary assets                  3                    341,516                     138,436
Accounts receivable – Net                       5                     17,092                     150,705
Accounts receivable - Other Revenue             5                    704,223                           0
General property, plant and equipment - Net     6                    218,434                     273,890
Other:
Advances: Travel                                4                     57,150                       41,750
            Grants                              4                  1,968,857                    1,991,832
Prepayment - Franchise Fund                     4                  1,826,614                      562,170


TOTAL ASSETS                                                $     22,792,834                 $ 18,516,184


LIABILITIES

Total Intragovernmental:
Collections from Other Revenues                 9           $      1,103,688             $         -

Accounts Payable                                9                     90,114                     642,743
Accrued Payroll                                 9                    181,737                     136,102
Accrued Leave                                   9                    189,833                     151,667

Total Liabilities                                                  1,565,372                     930,512

NET POSITION
Unexpended Appropriations                                         18,963,953                   15,822,252
Cumulative Results of Operations                                   2,263,509                    1,763,420

Total Net Position                                          $     21,227,462                 $ 17,585,672

TOTAL LIABILITIES AND NET POSITION                          $     22,792,834                 $ 18,516,184

                      The accompanying notes are an integral part of these statements.




                                                                                                18 

                                  AFRICAN DEVELOPMENT FOUNDATION 

                                         STATEMENT OF NET COST

                                For years ended September 30, 2002 and 2001 


                                                      Notes        FY 2002               FY 2001
                                                                    Grant                 Grant
                                                                   Program               Program
Program Costs

  Program Funding                                                  $    7,413,376        $    9,166,418

  Operating Expenses – Public                                           5,190,312             4,696,977

  Operating Expenses - Intragovernmental                                 127,689                124,644

Total Program Costs                                                    12,731,377            13,988,039


Net Program Costs                                                      12,731,377            13,988,039




Net Cost of Operations                                             $ 12,731,377          $   13,988,039




                      The accompanying notes are an integral part of these statements.




                                                                                             19 

                                   AFRICAN DEVELOPMENT FOUNDATION

                                STATEMENT OF CHANGES IN NET POSITION

                                For years ended September 30, 2002 and 2001 





                                 Notes                FY 2002                                  FY 2001

                                             Cumulative                           Cumulative
                                             Results of        Unexpended         Results of         Unexpended
                                             Operations       Appropriations      Operations        Appropriations

Beginning Balances                       $        1,763,420       $15,822,252      $1,687,554            $13,808,797

Budgetary Financing Sources
Appropriations Received                                            16,542,000                             16,000,000
Rescission & Cancelled
Resources                                                           (310,529)                                (35,200)
Appropriations Used                             13,089,770       (13,089,770)      13,951,345            (13,951,345)

Non Exchange Revenue
Donations                          8                     50                                 1,310
Other Revenues                     8              1,103,688
Collections - Transferred Out      8            (1,103,688)
Transfer in w/o Reimbursement                        13,957
Imputed Financing                                   127,689                           124,644
Losses Incurred                                                                       (13,394)

Net Cost of Operations                         (12,731,377)                       (13,988,039)

Ending Balances                                 $2,263,509        $18,963,953      $1,763,420            $15,822,252




                         The accompanying notes are an integral part of these statements.




                                                                                                           20 

                                   AFRICAN DEVELOPMENT FOUNDATION 

                                STATEMENT OF BUDGETARY RESOURCES 

                              For the years ended September 30, 2002 and 2001



                                                               Notes        FY 2002         FY 2001

Budgetary Resources

 Budget Authority                                                          $ 16,542,000     $ 15,964,800

 Unobligated Balance Brought Forward, October 1                                4,715,476         740,017

 Spending Authority from Offsetting Collections                                   82,467              1,310

 Adjustments:

 Recoveries of Prior-Year Obligations - Net                                    2,869,857       1,749,981
 Rescission Current Year                                                          (2,000)
 Permanently not available                                                     (308,529)                 0

Total Budgetary Resources                                                  $ 23,899,271     $ 18,456,108


Obligations Incurred - Current Period                                      $ 20,286,201     $ 13,658,164 



Unobligated balances – available                                  7            2,806,885       4,049,481 

Unobligated balances – unavailable                                7              806,185         748,463 


Total Status of Budgetary Resources                                        $ 23,899,271     $ 18,456,108

Relationship of Obligations to Outlays:

Obligated balance, Net - Beginning of Period                                  11,024,308      13,309,319
 Reimbursement & Other Income Earned - Receivable                                 82,467               0
                                                                              11,106,775      13,309,319

Obligated balance, Net - End of Period

 Accounts Receivable – Advances                                                1,968,857       1,991,832
 Undelivered Orders                                                           13,382,026       9,032,476
                                                                              15,350,883      11,024,308

Outlays:
 Disbursements                                                                13,089,770      15,943,175
 Collections                                                                     (82,467)         (1,310)
 Subtotal                                                                     13,007,303      15,941,865

Less: Offsetting receipts

Net Outlays                                                                $ 13,007,303     $ 15,941,865


                        The accompanying notes are an integral part of these statements.




                                                                                               21 

                                   AFRICAN DEVELOPMENT FOUNDATION
                                        STATEMENT OF FINANCING
                              For the years ended September 30, 2002 and 2001


                                                                           FY 2002             FY 2001
Obligations and Nonbudgetary Resources

Obligations Incurred                                                   $    20,286,201     $      13,658,164
 Less: Spending Authority from Offsetting Collections & Adjustments
          Recoveries of Prior-Year Obligations                              (2,952,325)          (1,749,981)
 Net Obligations                                                            17,333,876           11,908,183

Other Resource
 Donated Revenue                                                                14,007                1,310
 Financing Imputed for Cost Subsidies                                          127,689              124,644
 Exchange Revenue (Increases)                                                                        19,462
Net Other Resources Used to Finance Activities                                 141,696              145,416


Total Resources Used to Finance                                             17,475,572            12,053,599


Resources Used to Finance Items no Part of the Net Cost of Operations

 Change in budgetary resources not yet provided                             (4,392,589)            1,650,715

 Resources that finance the acquisition of assets                              (55,456)             103,376

Total resources that do not fund net costs                                  (4,448,045)            1,754,091

Costs That will not Require Resources in this Period
 Increase/(Decrease) in Annual Leave Liability                                   38,165              (3,025)
 (Increase)/Decrease Exchange Revenue from the Public                           133,613
 Decrease in expenses accrued from prior year                                 (714,078)

Total Costs That will not Require Resources in this Period                    (542,300)              (3,025)

Components not requiring Resources
 Bad Debt Related to Uncollectible Receivable                                  133,613               54,559
 Loss/Gains on the Disposal of Assets                                                                13,394
 Depreciation                                                                  112,537              115,421

Total costs that do not require resources                                      246,150              183,374


Net Cost of Operations                                                 $    12,731,377     $      13,988,039

                        The accompanying notes are an integral part of these statements.



                                                                                                  22 

                             African Development Foundation 

                             Notes to the Financial Statements 

                                         As of September 30, 2002



NOTE 1. SIGNIFICANT ACCOUNTING POLICIES

A.      Organization

The African Development Foundation (ADF) is a government-owned corporation established by Congress
under the African Development Foundation Act in 1980 and began operations in 1984. The Foundation is
the principal agency of the U.S. Government that supports community-based, self-help initiatives that
alleviate poverty and promote sustainable economic and social development in Africa at the grassroots
level. The Foundation’s headquarters are in Washington, D.C. ADF maintains partnerships with local
organizations, staffed with African professionals, in each of the countries in which it operates. Over the
last eighteen years, the Foundation has funded over 1500 activities in 34 African countries.

B.      Basis of Presentation

The accompanying financial statements have been prepared on the accrual basis to report the financial
position and results of operation in accordance with the concepts and standards contained in the
Statements of Federal Financial Accounting Standards, as required by the Chief Financial Officers Act of
1990. These statements have been prepared from the books and records of the Foundation in
accordance with the form and content for federal financial statements specified in the Office of
Management and Budget (OMB) in OMB Bulletin No. 01-09 as amended and the Foundation’s
accounting policies which are summarized in this note.

C.      Basis of Accounting

Transactions are recorded on an accrual basis. Grants are recorded when obligated and expenses are
recognized when the funds are expended, without regard to receipt or payment of cash. The preparation
of the financial statements in conformity with generally accepted accounting principles requires
management to make estimates and assumptions that affect the reported amounts of assets and
liabilities, and disclosure of contingent assets and liabilities at the date of the financial statements, and the
reported amounts of grants and expenses during the reporting period. Actual results will invariably differ
from those estimates.

D.      Fund Balances with Treasury and Cash

The Foundation maintains the majority of its funds in the U.S. Treasury. These are amounts for which the
Foundation is authorized to make expenditures and pay liabilities. The Foundation does maintain cash in
a commercial account at Bankers Trust Company of New York to process the award of grant funds to
recipients in U.S. currency. In addition, a commercial account is maintained with Barclays Bank of
Botswana and Citibank Nigeria to process grant funds for that country. The government of Botswana co-
funds grants with matching grant funds deposited to the Barclays’ account, however, the Foundation
controls all grant disbursement activities.

E.      Foreign Currencies

The Foundation awards grants to private organizations in Africa. Most of the grants are denominated in
local currencies to facilitate accounting by the recipient organizations. Depending on the nature of the
transaction, foreign currencies are translated into dollars at the actual exchange rate received by the
Foundation when the transaction is made or at the prevailing exchange rate at the beginning of the month
in which the transaction occurred. The value of obligations incurred by the Foundation in foreign
currencies varies from time to time depending on the current exchange rate .The Foundation adjusts the


                                                                                                              23
value of its obligations at the end of each year to reflect the prevailing exchange rates. Downward
adjustments to prior year obligations based on foreign currency exchange rates will be made available for
obligation if the adjustment occurs within the Foundation’s authorized two year funding period.

F.      Grant Accounting

The Foundation disburses funds in advance to grantees to cover their projected expenses over a three-
month period. Grantees report to the Foundation periodically on the actual utilization of these funds. For
purposes of these financial statements, the Foundation treats disbursements to grantees as advances.
The advance is reduced when the grantee reports expenditures. The total grant advance is the total
amount disbursed to the grantee less the total expended for open (non-expired) grants as of the reporting
date. Once a grant has closed (expired or cancelled) any excess disbursement is reclassified as an
Accounts Receivable.

G.      Travel Advances

Advances are given to ADF employees for official travel. Travel advances are recorded as expenses
upon receipt of employee travel vouchers.

H.    Property, Plant and Equipment, Net

The space in which the Foundation operates is leased by the Foundation through a multi–year lease.
Equipment is depreciated using the straight–line method over useful lives which is estimated at five years.

I.    Accounts Payable

Accounts payable represent amounts owed to non-federal entities, primarily commercial vendors, for
goods and services received by ADF and grantees whose allowable expenditures exceed the amount
disbursed.

J.      Contingencies

The Foundation is a party in various administrative, legal actions and claims brought by or against it. In
the opinion of the Foundation’s management and legal counsel, the ultimate resolution of these
proceedings, actions and claims will not materially affect the financial position or results of operations of
the Foundation.

K.    Annual, Sick, and Other Leave

Annual, sick and other leave is accrued as it is earned and the accrual is reduced as leave is taken. Each
year, the Foundation calculates the value of the accrued annual leave at the end of the year based on
current pay rates. Funding for payment of accrued annual leave at the end of the year will be taken from
future financing sources. Sick leave and other types of non-vested leave are expensed as taken.

L.    Retirement Plan

The majority of the Foundation’s employees participate in the Civil Service Retirement System (CSRS) or
the Federal Employees Retirement System (FERS). The Foundation makes statutory contributions to the
Office of Personnel Management for employees enrolled in each plan. The Foundation does not report
accumulated assets, plan benefits or unfunded liabilities, if any, attributable to its employees. The Office
of Personnel Management reports such amounts.




                                                                                                            24
Note 2.   Fund Balance with Treasury

              ADF’s Fund Balance with Treasury as of September 30, 2002 and 2001 are summarized
              below:

                                                                  FY 2002            FY 2001

                     Appropriated Funds                       $ 17,641,798       $ 15,257,834
                     Trust Fund                                     15,790             15,790
                     Gift Fund                                       1,360              1,310

                     Total                                    $ 17,658,948       $ 15,274,934


Note 3.   Cash, Foreign Currency and Other Monetary Assets

              ADF’s cash held as of September 30, 2002 and 2001 are summarized below:


                                                                  FY 2002            FY 2001
                     Bankers Trust                            $       44,444     $       47,139
                     Barclays Bank of Botswana                      243,521              91,297
                     Citibank Nigeria                                 53,551

                     Total                                    $     341,516      $       138,436

Note 4.   Advances

              ADF’s advances as of September 30, 2002 and 2001 are summarized below:

                                                                  FY 2002            FY 2001
                     Grants                                   $    1,968,857     $    1,991,832
                     Travel                                           57,150             41,750
                     Prepayment – Contracted Services              1,826,614            562,170

                     Total                                    $   3,852,621      $      2,595,752




                                                                                                25
Note 5.   Accounts Receivable

              The Intragovernmental Accounts Receivable from FY 2001 represents balance due from
              reimbursable income from services provided by ADF to AID and subsequently collected
              in FY 2002.

                                                                         FY 2002              FY 2001
                     Total Intragovernmental Receivable              $             0      $       82,467

              The Accounts Receivable represents the excess of receipts over expenditures by In-
              Country Partnerships and Development and Technical Assistance Grantees for FY 2002
              and 2001.

                                                                         FY 2002              FY 2001

                     Accounts Receivable                             $     123,016        $     252,307
                     Less Allowance for Uncollectible                     (105,924)            (101,602)

                     Net Accounts Receivable                         $      17,092        $     150,705

              The Accounts Receivable-Other Revenues represents the balance due from ADF’s
              Strategic partnerships with African Governments and other donor agencies.

                                                                         FY 2002

                      Government of the Republic of Guinea           $     270,247
                      Government of Jagawa State, Nigeria                  414,193
                      Government of the Republic of Botswana                19,783

                                                                     $     704,223

Note 6. Property, Plant and Equipment, Net

              Equipment is capitalized at cost if the initial unit acquisition cost is $5,000 or more and
              service life is two years or more. Equipment with an acquisition cost of less than $5,000
              or less than two years of life is expensed when purchased.

              ADF’s property, plant and equipment as of September 30, 2002 and 2001


                                                                         FY 2002              FY 2001

              Equipment, at cost                                     $     801,007        $     873,612
              Accumulated Depreciation                                    (582,573)            (599,722)
              Equipment, net                                         $     218,434        $     273,890




                                                                                                        26
Note 7. Unexpended Appropriations

                                                                  FY 2002            FY 2001
             Unexpended Appropriations                         $ 18,963,953       $ 15,822,252

             Unobligated
                Available                                           2,806,885          4,049,482
                Unavailable                                           806,185            748,462

                 Total unobligated                                  3,613,070          4,797,944

              Undelivered Orders                                   15,350,883         11,024,308

             Total                                             $ 18,963,953       $ 15,822,252

Note 8. Donations & Honorariums & Other Revenues

             Other Revenue recognized in FY 2002 represents the funds generated by the Foundation
             through its strategic partnerships with national and local African governments.

                                                                   FY 2002

                     Government of the Republic of Botswana    $     363,695
                     Government of the Republic of Guinea            270,248
                     Government of Jagawa State, Nigeria             469,745

             Total                                             $    1,103,688

             This represents an honorarium to ADF’s General Counsel from World Learning in FY
             2002.

                                                                   FY 2002            FY 2001

             Honorarium                                        $             50   $        1,310




                                                                                                27
Note 9. Accounts Payable

             Accounts payable Intragovernmental represents collections from Other Revenues
             awaiting disposition by the Foundation.

                                                                    FY 2002
                     Government of the Republic of Botswana     $     363,695
                     Government of the Republic of Guinea             270,248
                     Government of Jagawa State, Nigeria              469,745

             Total                                              $   1,103,688

             Accounts payable represent amounts owed to non-federal entities, primarily commercial
             vendors for goods and services received by ADF, and accrued employee payroll and
             annual leave.

                                                                    FY 2002             FY 2001

                     Commercial vendors                         $      90,114       $     164,564
                     Payments in transit                                                   23,213
                     Grantees                                                             164,499
                     New Partnership transition                                           290,467
                     Accrued employee payroll and leave               371,570             287,769

             Total                                              $     461,684       $     930,512




                                                                                                  28
                                               November 8, 2002



To the Board of Directors and the President,
African Development Foundation

         Under generally accepted auditing standards, auditors are encouraged to report on
“significant deficiencies in the design or the operation of the internal control structure that, in the
auditor’s judgment, could adversely affect the organization’s ability to record, process,
summarize, and report financial data consistent with the assertions of management in the
financial statements.” In addition, auditors are encouraged to report, in a separate management
letter, less material issues.

        In performing an audit of the African Development Foundation’s (ADF) Principal
Financial Statements, as of and for the year ended September 30, 2002, we considered ADF’s
internal controls, in determining the nature, timing, and extent of the audit test applied in
connection with our audit. Additionally, in accordance with Office of Management and Budget
(OMB) Bulletin No. 01-02, Audit Requirements for Federal Financial Statements, for those
significant internal control policies and procedures that were properly designed and placed in
operation, we performed sufficient tests to justify a low assessed level of control risk consistent
with Statement on Auditing Standards No. 55, promulgated by the American Institute of
Certified Public Accountants. Our consideration of the internal controls did not entail a detailed
study and evaluation of any of its elements and was not made for the purpose of making detailed
recommendations or evaluating the adequacy of the internal controls to prevent or detect all
errors and irregularities.

         ADF’s management is responsible for establishing and maintaining internal controls. In
fulfilling this responsibility, estimates and judgments by management are required to assess the
expected benefits and related costs of internal control policies and procedures.

       The objectives of internal controls are to provide management with reasonable, but not
absolute, assurance that assets are safeguarded against loss from unauthorized use or disposition,
and that transactions are executed in accordance with management’s authorization and recorded
properly to permit the preparation of financial statements in accordance with the comprehensive
basis of accounting described in OMB Bulletin No. 01-09, Form and Content of Agency
Financial Statements.

        Because of inherent limitations in any internal controls, errors or irregularities may occur
and not be detected. Also, projection of any evaluation of internal controls to future periods is
subject to the risk that it may become inadequate because of changes in conditions or
deterioration in its operating effectiveness.



                                                                                                    29
       Although the purpose of our consideration of the internal controls was not to provide
assurances thereon, matters came to our attention that we want to report to you. These matters
are discussed in the attachment (see page 24). These matters do not affect our report dated
November 8, 2002, on the ADF’s Principal Financial Statements referred to above.

        This report is intended solely for the use of the ADF’s management. This restriction is
not intended to limit the distribution of this report, which is a matter of public record.


Very truly yours,

/s/

Leonard G. Birnbaum and Company




Attachment: As Stated




                                                                                            30
                     AFRICAN DEVELOPMENT FOUNDATION 

                       Audit of Principal Financial Statements

                                 September 30, 2002 


                              Observations and Conclusions


1.   Management Accountability and Control:

         OMB Circular A-127, Financial Management Systems, requires agencies to establish
     and maintain an accounting system that provides for (1) complete disclosure of the
     financial results of the activities of the agency, (2) adequate financial information for
     agency management and for formulation and execution of the budget, and (3) effective
     control over revenue, expenditures, funds, property and other assets. Because of the
     inadequacies of GSA’s processing of ADF’s accounting transactions, ADF’s internal
     accounting and administrative controls in place during the year ended September 30,
     2002 were not capable of providing adequate, timely, and accurate information to assist
     ADF management in discharging fiscal responsibilities. As a result, ADF had failed to
     comply with OMB Circular A-127.

        We recommend that ADF take such action as is necessary to comply with these
     provisions of the OMB Circular A-127.




                                                                                            31
Management       We consider the management comments to be responsive to the
Comments and     recommendations made in this report. We have included these
Our Evaluation   comments in their entirety in Appendix II.

                 Based on the comments provided, we consider final management
                 decisions to have been reached on both of the recommendations
                 included in this report. Upon completion of final actions taken to
                 implement the recommendations identified in the report, the African
                 Development Foundation should consult with the Office of Inspector
                 General to request closure.




                                                                                 32
                                                                                          Appendix I




Management
January 29, 2003
Comments


                                                                                 January 29, 2003
Director of Financial Audits
Office of the Inspector General, U.S.A.I.D.
Room No: 8.10 RRB
1300 Pennsylvania Avenue
Washington, D.C. 20523-8100

                                              Re: Audit Report of the 2002 Financial Statement

Dear Mr. Brown:
We have received the audit report supplied by Leonard G. Birnbaum and Company, including
the opinion on the African Development Foundation’s (ADF) fiscal year 2002 financial
statements, internal controls status, and compliance with applicable laws and regulations. We
are pleased to note that all five comparative financial statements: Balance Sheet, Statement of
Net Cost, Statement of Changes in Net Position, Statement of Budgetary Resources, and
Statement of Financing have continued to receive unqualified opinions. Thank you and your
team as well as Birnbaum and Company for working closely with us during the audit process.
During the course of the audit, you identified and reported one instance of weakness in the
internal controls over financial reporting and three instances of non-compliance with selected
provisions of applicable laws and regulations. In general, we concur with your findings and
recommendations. ADF corrected the one material weakness in internal control on October 1,
2002, with the implementation of the U.S. General Ledger at the transaction level. ADF will
correct the remaining three instances of non-compliance with selected provisions of applicable
laws and regulations following our validation of General Services Administration’s conversion to
their new financial and accounting systems. By May 31, 2003, all weaknesses identified in the
FY 2002 audit report will be corrected prior to ADF’s submission of its third quarter financial
statements. The effectiveness and success of ADF’s quality improvement program is
evidenced by the continued unqualified opinions received on ADF’s financial statements and
the timely resolution all reported weaknesses.
We at the African Development Foundation recognize the importance of accountability and
public disclosure and our goal is to achieve excellence in our financial management systems.
We are committed to resolving the issues in your report and have dedicated the staff and
resources to ensure our systems are in full compliance. We look forward to working with you
and your staff on the 2003 audit. Any questions may be addressed to Vicki Gentry at ADF.

Sincerely,

/s/

Nathaniel Fields

President


                                                                                                 33
